No. 20-1207

 

In THE
Supreme Court of the United States

ALEXANDER BALBUENA,

Petitioner,
v.

BRIAN CaTES, ACTING WARDEN,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,462 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 3, 2021.

 

Wilson-Epes Printing Co., Inc.
